                                Office of Inspector General
                               Corporation for National and
                                        Community Service




   AGREED-UPON PROCEDURES FOR
     CORPORATION FOR NATIONAL
   AND COMMUNITY SERVICE GRANTS
           AWARDED TO THE
LOCAL INITIATIVE SUPPORT CORPORATION
           OIG REPORT 08-17 (REVISED)




                             Prepared by:

                Mayer Hoffman McCann P.C.
             Conrad Government Services Division
             12761 Darby Brooke Court, Suite 201
                 Woodbridge, Virginia 22192




This report was issued to Corporation management on June 4, 2008. Under the laws and
regulations governing audit follow-up, the Corporation is to make final management decisions
on the report’s findings and recommendations no later than November 11, 2008 and complete
its corrective actions by May 11, 2009. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                     AGREED-UPON PROCEDURES FOR
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         GRANTS AWARDED TO THE
                  LOCAL INITIATIVE SUPPORT CORPORATION


                                     Table of Contents

                                                                               Page

Executive Summary                                                               1

       Summary of Results                                                       1

       Agreed-Upon Procedures Scope                                             2

       Background                                                               2

Independent Accountants’ Report on Applying Agreed-Upon Procedures              4

   Cost and Awards Results                                                      5

       Consolidated Schedule of Award Costs                                     5

       Exhibit: Schedule of Award and Claimed Costs by Grant                    7

       Schedule A-1 – Schedule of Award and Claimed Costs, South Florida        8
                      LISC

       Schedule A-2 – Schedule of Award and Claimed Costs, Michigan LISC        9

       Schedule A-3 – Schedule of Award and Claimed Costs, Bay Area LISC        10

   Compliance and Internal Control                                              11

Appendix A – Local Initiative Support Corporation’s Response to Draft Report

Appendix B – Corporation for National and Community Service’s
             Response to Draft Report
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures to assist the OIG in grant cost and compliance testing of Corporation-funded
Federal assistance provided to the Local Initiative Support Corporation (LISC).

                                 SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of
$19,809, education awards of $32,526 and an accrued interest award of $270. A
questioned cost is an alleged violation or provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of
funds; a finding that, at the time of testing, such cost was not supported by adequate
documentation; or a finding that the expenditure of funds for the intended purpose was
unnecessary or unreasonable. The detailed results of our agreed-upon procedures on
claimed costs are presented in the exhibit, Consolidated Schedule of Award Costs and
supporting schedules.

Costs Claimed and Questioned

LISC claimed total costs of $2,511,859 from April 1, 2005, through March 31, 2007. As a
result of testing a judgmental sample of member files, we questioned costs of $19,809
because members served hours before signing their contracts.


                                                             Questioned Costs
                                                                                Accrued
                                   Grant           Federal       Education      Interest
         Description              Number            Share         Award          Award
  AmeriCorps National         03NDHNY001            $10,199         $30,026          $270
  AmeriCorps National         06NDHNY002               9,610          2,500             0

     Total Questioned Costs                         $19,809         $32,526          $270


We also found unallowable match costs of $2,027 and $1,695 on grant numbers
03NDHNY002 and 06NDHNY001, respectively. We did not question these match costs
because LISC was on track to fulfill its match obligation, even after subtracting these costs.
We were not able to make a final determination as both of the grants were open and LISC
has until the submission of its final Financial Status Report (FSR) to provide the required
match.

AmeriCorps members who successfully complete terms of service are eligible for education
awards and awards to cover accrued interest on student loans, both funded by the National
Service Trust. These award amounts are not funded by Corporation grants and thus are not
costs claimed by LISC. As part of our agreed-upon procedures, however, we determined
the effect of findings on education award and accrued interest award eligibility. Using the



                                              1
same criteria described above, we questioned education awards of $32,526 and an accrued
interest award of $270.

Details related to these questioned costs appear in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures (page 4).

Compliance Issues

We found instances of non-compliance with requirements of grant provisions, regulations, or
Office of Management and Budget (OMB) circulars, as detailed in the Compliance and
Internal Control section of the Independent Accountants’ Report on Applying Agreed-Upon
Procedures. Following is a summary of the issues identified:

              Incorrect cost reported on one FSR and late submission of some FSR’s;

              Late submission of member program forms;

              Lack of adequate procedures to ensure program compliance, including
               serving hours before signing member contracts, some instances of not
               paying living allowances in equal increments; and

              Lack of adequate procedures to ensure reporting program income.



                         AGREED-UPON PROCEDURES SCOPE

The agreed-upon procedures covered the allowability, allocability, and reasonableness of
financial transactions claimed under funding provided by the Corporation for the following
awards, as well as grant match costs. We also performed tests to determine compliance
with grant terms and provisions. We performed our on-site agreed-upon procedures during
the period November 12 through December 7, 2007.

         Program              Award Number           Award Period            Testing Period
AmeriCorps National           03NDHNY001          09/01/03 to 10/31/07   04/01/05 to 03/31/07
AmeriCorps National           06NDHNY002          09/01/06 to 08/31/09   09/01/06 to 03/31/07

The OIG’s agreed-upon procedures program, dated February 2007, provides for
understanding LISC’s policies and practices; reconciling claimed and match costs to
accounting records; testing member compliance with provisions of the grant; and testing the
allowability of claimed and match costs. These procedures are described in more detail on
Page 4 in the Independent Accountants’ Report.

                                      BACKGROUND

The Corporation, pursuant to the authority of the National and Community Service Trust Act
of 1993, as amended, awards grants and cooperative agreements to State commissions
and other entities, such as the LISC, to assist in the creation of full and part-time national
and community service programs.



                                              2
LISC is headquartered in New York City and employs approximately 350 persons, including
employees at its 30 field offices throughout the United States. LISC assists community-
based organizations in transforming distressed communities and neighborhoods into healthy
places. By providing capital, technical expertise, training, and information, LISC supports
the development of local leadership and the creation of affordable housing, commercial,
industrial and community facilities, businesses and jobs.           The community based
organizations are program sites for the field offices.

LISC’s headquarters staff performs all accounting functions (i.e., payroll, disbursements) for
the field offices. Its accounting system segregates all costs under the Corporation grant
between Federal and match and also by location. LISC’s Senior Program Director
completes the required FSRs using the cost data in the organization’s general ledger. The
FSRs submitted include information for all local offices, together with the information for the
parent organization.

All member files are maintained both by the field offices and LISC headquarters. The
original files are maintained by the field offices with copies submitted to headquarters.
LISC’s Senior Program Director conducts annual site visits to review the field offices’
member files, to determine if the files contain required documentation and that the duplicate
copied files kept by headquarters are complete.

As illustrated in the following table, LISC received about $4.8 million in funding for the
AmeriCorps National Program. The claimed and tested costs are approximately $2.5
million. Of the amount of claimed costs, approximately $2.0 million was used by the 14 field
offices during the agreed-upon procedures of period April 1, 2005 through March 31, 2007.

                                                                          Claimed
                                                     Funding             Within Audit
          Corporation Grants                        Authorized             Period
  03NDHNY001 – AmeriCorps National                   $3,572,108            $1,807,038
  06NDHNY002 – AmeriCorps National                    1,272,328                704,821

                   Total – Grants Administered       $4,844,436             $2,511,859


Exit Conference

The contents of this report were discussed with the Corporation and LISC at an exit
conference held in New York City on February 14, 2008. On March 12, 2008, the OIG
provided a draft of this report to LISC and to the Corporation for their comment. LISC’s
response to the findings and recommendations in the draft report are summarized in this
report and included as Appendix A. The Corporation responded to only one of the findings
and recommendations. The Corporation’s response has been summarized in this report
and included as Appendix B.




                                              3
                 Conrad Government Services Division



 Inspector General
 Corporation for National and Community Service

                               INDEPENDENT ACCOUNTANTS’ REPORT ON
                                APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the OIG
 solely to assist it in grant-cost and compliance testing of Corporation-funded Federal
 assistance provided to LISC for the awards and periods listed below. This agreed-upon
 procedures engagement was performed in accordance with standards established by the
 American Institute of Certified Public Accountants and generally accepted government
 auditing standards. The sufficiency of these procedures is solely the responsibility of the
 OIG. Consequently, we make no representation regarding the sufficiency of the procedures
 described below, either for the purpose for which this report has been requested or any
 other purpose.

      Program                   Award Number                Award Period                Testing Period
AmeriCorps National             03NDHNY001              09/01/03 to 10/31/07        04/01/05 to 03/31/07
AmeriCorps National             06NDHNY002              09/01/06 to 08/31/09        09/01/06 to 03/31/07

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not
 express such an opinion. Had we performed other procedures, other matters might have
 come to our attention that would have been reported to you.

 The procedures that we performed included:

           Obtaining an understanding of LISC’s policies and its field office monitoring
            process.

           Reconciling grant costs claimed and match costs to LISC’s accounting system.

           Testing field office member files to verify that the records supported member
            eligibility to serve and allowability of living allowances and education awards.

           Testing compliance of LISC and a sample of field offices on certain grant
            provisions and award terms and conditions.

           Testing claimed grant costs and match costs of LISC and a sample of field
            offices to ensure:

            i.   Proper recording of the AmeriCorps grants.

            ii. Costs were properly matched; and

        2301 Dupont Drive, Suite 200  Irvine, California 92612  949-474-2020 ph  949-263-5520 fx
   12761 Darby Brooke Court, Suite 201  Woodbridge, Virginia 22192  703-491-9830 ph  703-491-9833 fx


                                                    4
           iii. Costs were allowable and supported in accordance with applicable
                regulations, OMB circulars, grant provisions, and award terms and conditions.

Testing resulted in questioned costs, questioned education awards, and instances of
noncompliance with grant terms. The testing results for costs follow in the Cost and Awards
Section and are summarized in the Consolidated Schedule of Award Costs and the exhibit
and schedules. We also found instances of non-compliance with grant provisions,
regulations, or OMB requirements, as shown in the Compliance and Internal Control section.
Issues identified included:

              Incorrect cost reported on one FSR and late submission of some FSR’s;

              Late submission of member program forms;

              Lack of adequate procedures to ensure program compliance, including
               serving hours before signing member contracts, some instances of not
               paying living allowances in equal increments; and

              Lack of adequate procedures to ensure reporting program income.

Cost and Award Results

The following schedules and exhibit provide the results of testing costs claimed.

                       Consolidated Schedule of Award Costs
               Corporation for National and Community Service Awards
                         Local Initiative Support Corporation

                            April 1, 2005, to March 31, 2007
                                                            Questioned
    Award          Approved      Claimed       Questioned    Education
   Number           Budget         Costs         Costs        Awards           Reference
03NDHNY001         $3,572,108   $1,807,038      $10,199      *$30,296           Exhibit
06NDHNY002          1,272,328       704,821       9,610         2,500           Exhibit

                   $4,844,436     $2,511,859       $19,809       $32,796

* This amount includes a $270 questioned accrued interest award.

                    Notes to Consolidated Schedule of Award Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the LISC. The information presented in the
schedules has been prepared from reports submitted by LISC to the Corporation and
accounting records of LISC and its subgrantees. The basis of accounting used in the
preparation of these reports differs from accounting principles generally accepted in the
United States of America as discussed below.




                                               5
Equipment

No equipment was purchased and claimed under Federal or grantee share of cost for the
period within our audit testing period.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.




                                            6
                                                                                              EXHIBIT

                           Schedule of Awards and Claimed Costs by Grant
                                Local Initiative Support Corporation
                                   April 1, 2005, to March 31, 2007

                                                                                Questioned
                                               Claimed       Questioned         Education
                 Awards                         Costs          Costs             Awards            Reference

       03NDHNY001 – Subgrantees
Boston LISC                                     $116,469       $         -      $              -
Los Angeles LISC                                  110,499                -                     -
Houston LISC                                       93,725                -                     -
Jacksonville LISC                                 111,336                -                     -
Chicago LISC                                      112,271                -                     -
South Florida LISC *                              185,615            4,001                 6,064 Schedule A-1
Rhode Island LISC                                  55,042                -                     -
Michigan LISC *                                   284,409            1,320               **8,245 Schedule A-2
Greater Newark / Jersey LISC                       44,193                -                     -
Bay Area LISC *                                   161,031            4,878                15,987 Schedule A-3
NAVASA                                             45,887                -                     -
Mid South Delta                                   151,033                -                     -
                              Sub-total        $1,471,510          $10,199              $30,296

       06NDHNY002 – Subgrantees
Winston-Salem LISC                                $32,490          $        -       $         -
Boston LISC                                        32,991                   -                 -
Los Angeles LISC                                   43,830                   -                 -
Houston LISC                                       40,620                   -                 -
Jacksonville LISC                                  56,094                   -                 -
Chicago LISC                                        45475                   -                 -
South Florida LISC *                               56,372               4,119                 - Schedule A-1
Rhode Island LISC                                  32,170                   -                 -
San Diego LISC                                     41,932                   -                 -
Michigan LISC *                                   125,331                 686             2,500 Schedule A-2
Bay Area LISC *                                    51,091               4,805                 - Schedule A-3
                              Sub-total          $558,396              $9,610            $2,500

                          Subgrantees’ Total   $2,029,906          $19,809              $32,796

             Parent Awards
AmeriCorps National (03NDHNY001)                 $335,528          $        -       $         -
AmeriCorps National (06NDHNY002)                  146,425                   -                 -
                           Parent’s Total        $481,953          $        -       $         -


       *Selected for Application of Agreed-Upon Procedures.
       ** This amount includes a $270 questioned accrued interest award.




                                                   7
                                                                         Schedule A-1
                                                                           Page 1 of 1

                        Schedule of Award and Claimed Costs
                                South Florida - LISC

                        Awards 03NDHNY001 and 06NDHNY002


                                                                              Reference

Approved Budget (Federal Funds)                                    $380,477     Note 1

Claimed Federal Costs                                              $241,987     Note 2

Questioned Costs:
   Living Allowance – Contract Signed After
    Start of Service
    Program Year 2005-2006 (03NDHNY001)                  $4,001                 Note 3
    Program Year 2006-2007 (06NDHNY002)                   4,119                 Note 3
       Total Questioned Costs                                        $8,120

Questioned Education Awards:
   Contract Signed After Start of Service
   Program Year 2005-2006 (03NDHNY00)                                $6,064     Note 3

Notes

1. The amount shown above as Approved Budget represents the total funding to South
   Florida - LISC according to the subgrantee agreements.

2. Claimed Federal costs represent South Florida - LISC’s reported expenditures for the
   period April 1, 2005, through March 31, 2007.

3. Member contracts were not always completed and signed prior to the member’s start
   date, which resulted in questioned living allowances and education awards
   (see Finding 3).




                                            8
                                                                            Schedule A-2
                                                                              Page 1 of 1

                        Schedule of Award and Claimed Costs
                                  Michigan - LISC

                        Awards 03NDHNY001 and 06NDHNY002


                                                                               Reference

Approved Budget (Federal Funds)                                  $716,948         Note 1

Claimed Federal Costs                                            $409,740         Note 2

Questioned Costs:
   Living Allowance – Contract Signed After
    Start of Service
    Program Year 2005-2006 (03NDHNY001)               $1,320                      Note 3
    Program Year 2006-2007 (06NDHNY002)                  686                      Note 3
       Total Questioned Costs                                      $2,006

Questioned Trust Awards:
   Education Awards - Contract Signed After
   Start of Service
   Program Year 2005-2006 (03NDHNY001)                $7,975                      Note 3
   Program Year 2006-2007 (06NDHNY002                  2,500                      Note 3
       Total Education Awards                                    $10,475          Note 3

    Accrued Interest Award – Contract Signed
    After Start of Service (03NDHNY001)                $270                       Note 3
       Total Trust Awards                                         $10,745

Notes

1. The amount shown above as Approved Budget represents the total funding to Michigan -
   LISC according to the subgrantee agreements.

2. Claimed Federal costs represent Michigan - LISC’s reported Federal expenditures for
   the period April 1, 2005, through March 31, 2007.

3. Member contracts were not always completed and signed prior to the member’s start
   date, which resulted in questioned living allowances; education awards and an accrued
   interest award (see Finding 3).

.




                                           9
                                                                            Schedule A-3
                                                                              Page 1 of 1

                         Schedule of Award and Claimed Costs
                                   Bay Area - LISC

                        Awards 03NDHNY001 and 06NDHNY002

                                                                             Reference

Approved Budget (Federal Funds)                                  $416,027       Note 1

Claimed Federal Costs                                            $212,122       Note 2

Questioned Costs:
   Living Allowance – Contract Signed After
    Start of Service
    Program Year 2005-2006 (03NDHNY001)              $ 4,878                    Note 3
    Program Year 2006-2007 (06NDHNY002)                4,805                    Note 3
       Total Questioned Costs                                      $9,683

Questioned Education Awards:
   Contract Signed After Start of Service
   Program Year 2005-2006 (03NDHNY001)                            $15,987       Note 3

Notes

1. The amount shown above as Approved Budget represents the total funding to the Bay Area
   - LISC according to the subgrantee agreements.

2. Claimed Federal costs represent the Bay Area – LISC’s reported Federal expenditures for
   the period April 1, 2005, through March 31, 2007.

3. Member contracts were not always completed and signed by prior to the member’s start
   date, which resulted in questioned living allowances and education awards
   (see Finding 3).




                                              10
                                  Compliance and Internal Control

In addition to the costs and award results described in the Consolidated Schedule of Award
Costs, our tests disclosed instances of noncompliance and deficiencies in internal controls.

Finding No. 1 – Incorrect Cost Reported on One FSR and Late Submission of some
FSRs.

The first FSR for grant number 06NDHNY002 included costs from the last period of grant
number 03NDHNY001. It was LISC’s understanding that the 2006 grant was a continuation of
the 2003 grant and it was appropriate to include the expenses from both grants in the FSR for
grant number 06NDHNY002. As a result the FSR for the 2006 grant was overstated by
$108,332 and the FSR for the last period of the 2003 grant was not filed.

The LISC did not always submit FSRs by the required due dates as follows:

                                       3 of the 5 FSRs were submitted late
                                       1 of the 5 FSRs was not submitted

Reporting requirements specified in the AmeriCorps Provisions are not being followed. The
Senior Program Director stated that due to the workload, LISC was unable to submit all of the
required FSRs by the due date. The FSRs were submitted 1, 4 and 20 days late, respectively.
For one of the FSRs, LISC requested and was granted a filing extension by the Corporation but
was unable to meet the revised deadline. The non-submitted FSR is the 2003 grant costs that
were included in the 2006 grant. We did not receive evidence during our fieldwork that the
FSR was submitted for the 2003 grant, period ending March 31, 2007. Late submission of
FSRs precludes the Corporation from receiving timely data on expended grant funds and
match. Starting in October 2007, the Corporation sends out notices when FSRs are past due.
When FSRs are 45 days late, the Corporation places a hold on grant funds.


Criteria

The Federal Government common rule for grants administered by universities and nonprofits,
45 C.F.R. § 2543.21 states:

           Standards for financial management systems.

           (a) Federal awarding agencies shall require recipients to relate financial data to
               performance data and develop unit cost information whenever practical.

           (b) Recipients’ financial management systems shall provide for the following:
                  (1) Accurate, current and complete disclosure of the financial results of each
                  federally-sponsored project or program in accordance with the reporting
                  requirements set forth in § 2543.51. If a Federal awarding agency requires
                  reporting on an accrual basis from a recipient that maintains its records on other
                  than an accrual basis, the recipient shall not be required to establish an accrual
                  accounting system. These recipients may develop such accrual data for its
                  reports on the basis of an analysis of the documentation on hand.
                  (2) Records that identify adequately the source and application of funds for
                  federally-sponsored activities. These records shall contain information


                                                  11
             pertaining to Federal awards, authorizations, obligations, unobligated balances,
             assets, outlays, income, and interest.
             (3) Effective control over and accountability for all funds, property, and other
             assets. Recipients shall adequately safeguard all such assets and assure they
             are used solely for authorized purposes.
             (4) Comparison of outlays with budget amounts for each award. Whenever
             appropriate, financial information should be related to performance and unit cost
             data.
             (7) Accounting records including cost accounting records that are supported by
             source documentation.

AmeriCorps Provisions (2006 ed.), Section V.B.1., General Provisions, Financial Management
Standards, states in part:

      The grantee must maintain financial management systems that include standard
      accounting practices, sufficient internal controls, a clear audit trail, and written cost
      allocation procedures as necessary. Financial management systems must be capable
      of distinguishing expenditures attributable to this Grant from expenditures not
      attributable to this Grant. This system must be able to identify costs by programmatic
      year and by budget category and to differentiate between direct and indirect costs or
      administrative costs.

AmeriCorps Provisions (2006 ed.), Section IV.N.1., AmeriCorps Special Provisions, N,
Reporting Requirements, states in part:

            Financial Status and Progress Reports. Progress and Financial Status reporting
            requirements in these Provisions apply only to the grantee. Grantees are required
            to review, analyze, and follow up on progress and financial status reports they
            receive from AmeriCorps sub-grantees or operating sites. Each grantee must
            submit Progress and Financial Status Reports by the required due dates.

            Requests for extensions of reporting deadlines will be granted when 1) the report
            cannot be furnished in a timely manner for reasons legitimately beyond the control
            of the grantee and 2) the Corporation receives a request explaining the need for
            an extension before the due date of the report.

            Extensions of deadlines for FSRs (SF 269a) may only be granted by the Office of
            Grants Management, and extensions of deadlines for Progress Reports may only
            be granted by the AmeriCorps Program Office.

            a. Financial Status Reports. The grantee shall submit semi-annual cumulative
            financial status reports, summarizing expenditures during the reporting period
            using eGrants (on the menu tree, click ‘Financial Status Reports’). Financial
            Status Report deadlines are as follows:

                   Due Date                         Reporting Period Covered
                   April 30                         Start of grant through March 31
                   October 31                       April 1 – September 30




                                             12
Recommendations

We recommend that the Corporation:

       1a. Instruct LISC on the differences between a new grant and the continuation of an
           existing grant.

       1b. Ensure that LISC files the last FSR for the 03NDHNY001 grant and amends the
           FSR for grant number 06NDHNY002.

       1c. Ensure LISC has sufficient personnel to submit FSRs by the due dates.


LISC’s Response

LISC has received clarification on how to distinguish between a new grant and a continuing
grant after it submitted the FSRs for the 03NDHNY001 and 06NDHNY002 grants. LISC
requests that this topic be revisited and discussed formally and regularly at upcoming grantee
conferences. LISC filed the amended FSR for Grant no. 06NDHNY002 on November 29,
2007. In addition, LISC does not expect there to be any difficulty in completing the FSRs by
the deadlines and, if required, will provide additional staff to ensure the timely submission of the
FSRs in the future.

LISC disagrees with the finding on late filing of the FSR for Grant no. 03NDHNY001. Due to
the augmentation funding, and a change in the project end date, LISC stated that an FSR was
not due for the period ending on March 31, 2007. The FSR due date to report expenditures for
the period of October 1, 2006, through May 31, 2007, was extended by the Corporation to
January 31, 2008. LISC met this deadline.

Auditor’s Comment

The Corporation should follow up with LISC to determine whether the proposed actions were
implemented and effective. However, no documentation was provided by LISC to support the
events that had transpired for Grant no. 03NDHNY001. During our fieldwork, it was LISC’s
understanding that Grant no. 06NDHNY002 was a continuation of Grant no. 03NDHNY001, a
fact that is not disputed in its response. This was LISC’s stated reason why the FSR for the
period ending March 31, 2007, the original grant end date, was not submitted by April 30, 2007.
Based on an eGrants report submitted to us by LISC, it is clear that the Corporation extended
the project end date to May 31, 2007, and the FSR due date was extended to January 31,
2008. However, we believe these events transpired based on the results of our fieldwork as no
supporting documentation was provided during the fieldwork phase of this engagement.




                                                13
Finding No. 2: Late Submission of Member Program Forms

Two of the field offices we tested did not always submit required reports by the dates due or did
not perform required tasks as shown in the table below.

  Field Offices                   Description of Non-Compliance
  Bay Area – LISC                     2 of 14 enrollment forms tested were submitted late
                                      3 of 14 end-of-term evaluations tested were not
                                       performed

  South Florida – LISC                2 of 14 enrollment forms tested were submitted late


The Bay Area and South Florida - LISC field offices did not submit enrollment forms by the due
dates because the appropriate personnel were not available to authorize the forms or the
information needed to complete the forms were not available. In addition, the Bay Area
Program Officer did not submit end-of-term evaluations to LISC headquarters; therefore, we
were not able to determine if the evaluations were performed. The lack of an end-of-term
evaluation could prevent a member from serving a second term or allow a member that did not
complete a term of service to serve a second term. Member enrollment and exit forms are also
required to be submitted on time to maintain the accuracy of National Service Trust records.

Criteria

AmeriCorps Provisions (2006 ed.), Section IV.N.2., AmeriCorps Special Provisions, N,
Reporting Requirements, states:

            AmeriCorps Member Related Forms.
              a. Enrollment Forms. Enrollment forms must be submitted no later than
                  30 days after a member is enrolled.
              b. Change of Status Forms. Member Change-of-Status Forms must be
                  submitted no later than 30 days after a member’s status has changed.
              c. Exit/End-of-Term-of-Service Forms.            Exit/End-of-Term-of-Service
                  Forms must be submitted no later than 30 days after a member exits
                  the program or finishes his/her term of service.

AmeriCorps Provisions (2006 ed.), Section IV D.6.– AmeriCorps Special Provisions, Sub-
Section D – Training, Supervision, & Support, Part 6 – Performance Review states in part:

           “The grantee must conduct and keep a record of at least a midterm and end-of-term
           written evaluation of each member's performance for Full and Half Time members and
           an end-of-term written evaluation for less than Half-time members. The evaluation
           should focus on such factors as:
                   a. Whether the member has completed the required number of hours;
                   b. Whether the member has satisfactorily completed assignments; and
                   c. Whether the member has met other performance criteria that were clearly
                       communicated at the beginning of the term of service.”

The Corporation’s AmeriCorps, program regulation 45C.F.R. § 2522.220(c) Eligibility for a
second term. States in part.



                                                14
           For purposes of determining a participant’s eligibility for a second term of service or
           additional term of service and/or for an education award, each AmeriCorps program
           will review the performance of a participant mid-term and upon completion of a
           participant’s term of service.

Recommendation

We recommend that the Corporation:

   2a. Ensure and verify that LISC trains and monitors field offices for submission of
      enrollment forms in accordance with AmeriCorps provisions.

   2b. Require and verify that LISC trains and monitors its field offices to ensure that all
      midterm and end-of-term evaluations are conducted and documented.

LISC’s Response

LISC stated that processes have been put in place to train and monitor its field offices on all
aspects of the AmeriCorps program. LISC will ensure that, when staff transitions take place in
the field, new staff is provided with the tools, information and training necessary to ensure
compliance with grant provisions. Finally, the materials used by LISC to train the field offices
were provided to the Corporation during its December 2007 monitoring visit.

Auditor’s Comment

LISC’s planned actions should increase compliance with grant provisions. The Corporation
should follow up to determine whether the planned actions were implemented.

Finding No. 3 –Lack of Adequate Procedures to Ensure Program Compliance, Including
Serving Hours Before Signing Member Contracts and Some Instances of not Paying
Living Allowances in Equal Increments

Member Contract. All three field offices tested permitted members to receive living
allowances and to record service hours before member service agreements were signed.




                                               15
                                                                 Questioned Costs
                                                                              Education and
                                                         Living    Fringe    Accrued Interest
 Local Office                 Description              Allowance  Benefits       Awards
Michigan            8 of 14 members tested did
                    not sign service agreements
                    prior to start of service            $1,864      $142        $10,745
Bay Area            10 of 14 members tested did
                    not sign service agreement
                    prior to start of service            8,993        690         15,987
South Florida       8 of 14 members tested did
                    not sign service agreements
                    prior to start of service             7,542        578          6,064


 Totals                                                 $18,399     $1,410       $32,796


As a result, we questioned living allowances of $18,399 and related fringe benefits of $1,410
for living allowance payments disbursed prior to the member signing a service agreement.
Education awards were questioned for members whose minimum service hours were not met
as a result of the deduction of hours served prior to signing the agreement. Questioned
education awards total $32,526, of which $30,026 was from grant no. 03NDHNY001 and
$2,500 from grant no. the 06NDHNY002. Additionally, a $270 accrued interest award given to
one of the members from Michigan was questioned.

Living Allowances. All three field offices tested did not always pay member living allowances
in equal increments. The Senior Program Director stated that living allowances for full-time
members were prorated when service hours were not met during a pay period. In addition, if a
member started or ended service near the ending or beginning of a pay period, allowances
were prorated to reflect the days served.

Criteria

AmeriCorps Provisions (2006 ed.), Section IV.C.1, AmeriCorps Special Provisions, C.,
Member Enrollment, states in part:

           Member Enrollment Procedures.

              a. An individual is enrolled as an AmeriCorps member when all of the
                 following have occurred:

                   i. He or she has signed a member contract;
                   ii. The program has verified the individual's eligibility to serve;
                   iii. The individual has begun a term of service; and
                   iv. The program has approved the member enrollment form in WBRS.

              b. Prior to enrolling a member in AmeriCorps, programs make commitments
                 to individuals to serve. A commitment is defined as signing a member
                 contract with an individual or otherwise entering into a legally
                 enforceable commitment as determined by state law.


                                                  16
              *       *      *       *

       2. AmeriCorps Members. The grantee must keep time and attendance records
       on all AmeriCorps members in order to document their eligibility for in-service
       and post service benefits. Time and attendance records must be signed and
       dated both by the member and by an individual with oversight responsibilities for
       the member.

AmeriCorps Provisions (2006 ed.), Section IV.I.1, AmeriCorps Special Provisions, Living
allowances, Other In-Service Benefits and Taxes, states in part:

       Living Allowance Distribution. A living allowance is not a wage. Programs must
       not pay a living allowance on an hourly basis. Programs should pay the living
       allowance in regular increments, such as weekly or bi-weekly, paying an
       increased increment only on the basis of increased expenses such as food,
       housing, or transportation. Payments should not fluctuate based on the number
       of hours served in a particular time period, and must cease when a member
       concludes a term of service.

Recommendations

As a result of the number of member issues found at all three of the sites tested we
recommend the Corporation ensure that LISC:

   3a. Review all member files to determine the number of hours served after the member
       contract was signed. Disallow education awards for all members that did not serve the
       required number of hours.

   3b. Provide training to all of the field offices to ensure they are familiar with the living
       allowance requirements and provisions.

   3c. Ensure living allowance payments conform to AmeriCorps provisions and that they
       adhere to policies on distributing living allowances in equal increments.

In addition we recommend the Corporation:

   3d. Determine the allowability of the questioned living allowances, education and accrued
       interest awards and recover unallowable costs and applicable administrative costs.

LISC’s Response

LISC stated that its understanding of the provisions was that the member contracts should be
signed and on file and they were not clear on the timing of the signatures. LISC has instituted
procedures and trained field staff to ensure that all member contracts are executed prior to the
member’s start date. However, LISC respectfully requests that the recommendations related to
disallowing education awards be set aside because it believes it was acting in good faith,
followed the guidelines as communicated to it by the Corporation, and its procedures provided
reasonable evidence that members were eligible.




                                              17
LISC stated that procedures have been implemented to restrict member start dates to coincide
with the start of its payroll cycles, thereby eliminating the need to prorate living allowance
payments.


Corporation’s Response

The Corporation does not interpret the grant provisions as disallowing service hours solely
because they were preformed prior to signature of a member contract; therefore, it does not
agree that the hours served before the member signed a contract should be deducted.


Auditor’s Comment

The LISC Member Contract states, “Agreement of Participation, dated as of Start Date (this
“Agreement”), between Local Initiatives Support Corporation, a New York not-for–profit
corporation (“LISC”), and Member Name (“Member”).” The only dates on the LISC agreement
are the dates LISC and the member signed the contract. Thus, the start date is the date the
member signed the contract. The 30-day regulation in the provisions refers only to the time
period the grantee has to enter members’ enrollment into WBRS.

Additionally, we believe that hours served prior to an executed contract containing the related
required disclosures results in unreasonable and unnecessary risk for all parties involved.

Hours served before the start dates are not valid service hours. We continue to question the
costs because, the members did not serve the required number of hours to complete their term
of service when hours recorded before the start date are deducted from the total reported
service hours.


Finding No. 4 – Lack of Adequate Procedures to Ensure the Reporting of Program
Income

We found inadequate controls to determine and report program income. LISC Headquarters
requires field offices to provide $13,000 for each member for every program year. The field
offices generate this match by contracting with local organizations such as not-for-profit
entities. The local organizations pay a contractually agreed-upon amount to the field office for
AmeriCorps member services. These payments are program income that should be reported
to the Corporation on SF-269 (FSR long form). Additionally, the general ledger should identify
program income separate from other match resources.

Criteria

The Federal Government common rule for grants administered by universities and nonprofits,
45C.F.R. § 2543.21, states in part:

           Standards for financial management systems.

           (a) Federal awarding agencies shall require recipients to relate financial data to
               performance data and develop unit cost information whenever practical.

           (b) Recipients’ financial management systems shall provide for the following:


                                                  18
              (1) Accurate, current and complete disclosure of the financial results of each
                  federally-sponsored project or program in accordance with the reporting
                  requirements set forth in § 2543.51. If a Federal awarding agency requires
                  reporting on an accrual basis from a recipient that maintains its records on
                  other than an accrual basis, the recipient shall not be required to establish
                  an accrual accounting system. These recipients may develop such accrual
                  data for its reports on the basis of an analysis of the documentation on hand.
              (2) Records that identify adequately the source and application of funds for
                  federally-sponsored activities. These records shall contain information
                  pertaining to Federal awards, authorizations, obligations, unobligated
                  balances, assets, outlays, income, and interest.
              (3) Effective control over and accountability for all funds, property, and other
                  assets. Recipients shall adequately safeguard all such assets and assure
                  they are used solely for authorized purposes.
              (4) Comparison of outlays with budget amounts for each award. Whenever
                  appropriate, financial information should be related to performance and unit
                  cost data.
              (7) Accounting records including cost accounting records that are supported by
                  source documentation.

           *         *       *
Recommendation

       4. We recommend that the Corporation ensure that LISC implements procedures to
          properly account for program income on the general ledger and report the income
          on SF 269.

LISC’s Response

LISC stated that it has separate budget centers for each site that track payments from
placement sites as well as expenses, and this revenue is recorded within these budget centers.
LISC does not disagree with the part of the recommendation to report the income on the SF
269. It requests guidance from the Corporation on how to report the revenue because SF 269
(long form FSR) is not available in E-grants, the Corporation’s required reporting vehicle.

Auditor’s Comment

Though LISC was able to provide a general ledger that separately reported the program
income, this was not due to a procedure being in place, but more due to this revenue source
being the only revenue being reported by the placement sites. LISC does not have a
procedure in place to ensure that the payments received from these sites are used to offset
Federal expenses if they exceed the claimed match. Therefore, our recommendation remains
as previously stated.




Mayer Hoffman McCann P.C.
Woodbridge, Virginia
June 2, 2008

                                              19
                        APPENDIX A

Local Initiative Support Corporation’s Response to Draft Report




                              20
Carol Bates, Assistant Inspector General for Audit
Corporation for National and Community Service
Office of the Inspector General
1201 New York Avenue, NW – Suite 830
Washington, DC 20525

April 11, 2008

Dear Ms. Bates:

Thank you for the opportunity to provide comment on the draft
report related to the Agreed-Upon Procedures for Corporation for
National and Community Service Grants Awarded to Local
Initiatives Support Corporation.

We look forward to working with the Office of Inspector General
and other Corporation staff towards successful resolution of the
recommendations in the report.

The detailed comments follow. Should you need additional
information, please feel free to be in touch with me at (212) 455-
9324

Sincerely,




Pearl M. Jones, LISC AmeriCorps Senior Program Director
Cc: Lily Lim, Vice President and Controller Local Initiatives
Support Corporation
Responses to Recommendations

Recommendation 1a.
LISC agrees. After submission of the FSRs for the 03 and 06
grants, LISC received clarification on how to distinguish between a
new grant and a continuing grant. LISC does request that topics
such as these be revisited and discussed formally and regularly at
upcoming grantee conferences, by way of financial management
/grants management workshops.

Recommendation 1b.
(i) LISC believes the recommendation for filing the last FSR for
the 03NDHNNY001 grant is not valid since we disagree with the
underlying finding. The draft report indicates in part on page 11
that:

The FSR for the last period of the 2003 grant was not filed
1 of the 5 FSRs was not submitted
We did not receive evidence during our fieldwork that the FSR was
submitted for the 2003 grant, period ending March 31, 2007

For the 2003 grant, the report was not due for the period ended
3/31/07. Because of augmentation funding, and a change in the
project end date, a report for the period 10/1/06-5/31/07 was due
on 1/31/08. LISC met that deadline. This date was an extension
approved by the Corporation. A copy of the FSR list from e-grants
is attached.

(ii) Related to the amending of the FSR for 06NDHNY002, LISC
filed the FSR on 11/29/07.

Recommendation 1c.
LISC agrees. Preparation of the FSR due on 4/30/08 has already
begun. It is our expectation that there will be no difficulty in
meeting this deadline. LISC will provide additional staff to ensure
timely submission of FSRs in the future.


Recommendations 2a. and 2b.
LISC agrees with the recommendations. However, it is requesting
a detailed list of the members who were the subjects of the finding.
We would also like to note that members would not be denied the
opportunity to serve a second term of service if a final appraisal
were not conducted. Offers to serve a second term are extended by
the placement site, and are based on a simultaneous desire of the
site and member to have them serve again. This is based on
member achievement and the site’s satisfaction with the service
performed by the member, and member achievement related to
meeting goals and objectives.

LISC notes that it already has processes in place to train and
monitor its field offices on all aspects of the AmeriCorps program.
Going forward, LISC will ensure that when staff transitions take
place in the field, new staff is provided with the tools, information
and training necessary to ensure compliance with grant provisions.

At the CNCS monitoring visit in December 2007, LISC provided
CNCS with the materials it uses to train sites with respect to their
responsibilities for submitting enrollment forms in accordance with
AmeriCorps provisions and for insuring that mid –term and end of
term evaluations are conducted and documented at a monitoring
visit conducted by CNCS in December of 2007. LISC also
provided copies of its desk audit and site visit protocols, tools and
reports related to compliance with general AmeriCorps provisions.

Training already in place related to the above includes the
following:

(i) LISC AmeriCorps Intranet Site is used by LISC field staff as
an on-line reference manual. The site contains information about
grant provisions related to timely filing of enrollment forms and
the requirement to conduct mid-term and end of term evaluations.

(ii) LISC Staff Retreat/Back to Basics Sessions
Each year, parent organization staff attempts to hold an in-person
staff retreat related to the basics of running an AmeriCorps
program. This includes information related to closing out a
program cycle and starting-up a new cycle. If scheduling or fiscal
constraints prevent holding these in-person trainings, they are
conducted via web-cast. The sessions cover compliance related
topics including enrolling and exiting members timely and the
need to conduct mid-term and final reviews. Staff is also provided
with power point presentations to use as quick reference guides.
(iii) Local Orientation
Parent organization staff holds orientations at each operating site
that sponsors AmeriCorps programs. Attendees include LISC
staff, AmeriCorps members and placement site supervisors.
Responsibilities related to the recommendation are covered, and
are included in written materials that include supervisors’
handbooks and power point presentations used to guide the
orientation.

(iv) Internal Communication
The Program Director provides monthly updates to LISC
AmeriCorps staff. The updates include advice and guidance on a
number of topics including compliance with grant provisions. The
updates are topical in that they are geared to provide reminders
around key activities that should be taking place over the course of
the year in a given month(s). This would include reminders about
provisions related to timely enrollment of members (September-
November), the completion of mid-term evaluations (February-
April) and the completion of timely exits and final appraisals
(June-October).

(v) Desk Audits/Site Visits
LISC conducts desk audits of its sites several times a year to
determine which sites are in compliance with grant provisions
including those indicated in the findings. These audits take place in
October and January and again in July and September. The parent
uses tracking sheets for the collection of documents and provides
these sheets along with the audit results to sites. Sites also receive
guidance on how to correct deficiencies. Similarly, the parent
conducts field site visits (usually) during the spring to review
among, other things, sites’ recordkeeping as it relates to having on
file documents proscribed by the grant provisions. The results of
the visits are discussed in-person at the site as part of a debriefing,
with a formal report (including action steps to be taken) being
prepared and sent to the site after the visit has been concluded.

(vi) Operating Site Ratings
LISC also uses a rating sheet to score operating site applications to
participate in its AmeriCorps program. Part of the scoring criteria
is focused on how well or poorly sites comply with provisions
related to the timeliness of member enrollments and exits in
WBRS, reporting and other issues. The scores related to
compliance in prior years are one of the determining factors in
whether or not sites are awarded all of the slots it requests, since
ability to comply with the terms of the grant is a site management
issue. In cases where sites have had repeated deficiencies in these
areas, the slots finally awarded are reduced, until such time that
performance improves. This system was used to reduce the slot
awards (for 2008-2009) for the two field offices in the sample that
are the subject of this finding.

Recommendations 3a. and 3d.
LISC respectfully requests that the Corporation set aside these
recommendations.

At the Grantee Conference held in the summer of last year, LISC
received training and clarification around the provision for member
contracts. LISC then instituted procedures and trained field staff
on this issue. As a result, member contracts for the 2007-2008
year were fully executed by members prior to, or on their start
dates.

The recommendations refer to our understanding of the provisions
prior to attending the training in 2007. Our understanding of the
provision was that member contracts should be signed and on file.
The timing of signatures on member contracts was not clear, nor
had it been at issue during past monitoring visits conducted at the
field level or at the parent by Corporation or State Commission
Staff. Rather the emphasis had been on having the documents on
file.

LISC had then and has now a practice of issuing commitment
letters to prospective members (prior to the commencement of
service) that confirms start dates, service type, service term, and
placement site. LISC also has a process that assesses member
eligibility to serve by reviewing the documents the Corporation has
indicated are appropriate for verifying age and citizenship status.

We believe that we acted in good faith to insure that slots were
available for those members who were accepted into the program,
that members received from us a confirmation of our intent to
have them serve and that they were advised of the terms and
conditions of their service by way of attendance at pre-service
orientation and receiving and executing the member contract. It is
our contention that the commitment letter, member contract, and
the review and signing of timesheets by members and their
supervisors are reasonable evidence that members were eligible to
serve and therefore that the living allowance and education awards
paid on those basis should not be disallowed.

Since LISC followed the guidelines as communicated to it during
the time covered by the audit and since its procedure provided
reasonable evidence that members were eligible, we do not believe
disallowing member living stipends, fringe benefits, education
awards and requiring the grantee to reimburse CNCS for those
costs are warranted.

We would, however, like to request a list that provides individual
details related to the members in question, the number of hours
being questioned and the associated living allowances, stipends,
fringe benefits, education awards and interest payments.

Recommendations 3b and 3c.
The grantee has already instituted the process of restricting
member start dates to coincide with the start of its payroll cycles.
This will eliminate the need to prorate living stipend payments so
that an amount over the agreed upon stipend ($18,000) does not
result from paying members in equal installments even when
beginning or ending service in the middle of a pay cycle.


Clarification:
The grantee would like to clarify that its field offices do not
distribute living allowance payments to members. That function is
handled at the parent organization level. However, field staff,
placement site supervisors and members are all made aware of the
provisions regarding payment of the living allowance. This is
covered at length during local orientations and is included in both
member and supervisor handbooks.

Guidance:
The grantee, however, does request guidance from the Corporation
about how stipend payments can be adjusted in circumstances
where full-time members are serving less than full-time, when
members have continued absences after exhausting paid leave and
when it becomes necessary to recoup overpayments because of late
notification about the above.


Recommendation #4. LISC disagrees with the recommendation.
The part of the recommendation that states that “LISC impellents
procedures to properly account for program income on the general
ledger” is not valid. LISC has separate budget centers for each
site that tracks payments from placement sites as well as expenses.
The revenue is also recorded in those budget centers. It is a part of
LISC’s financial statements and as such is audited by KPMG.

For GAAP purposes, LISC records the payments as revenue. For
AmeriCorps purposes, these payments are seen by LISC as part of
the match. We would like to request that the Corporation give
consideration to clarifying distinctions between match, fee for
service and program income, and discussing those distinctions
more cohesively in the grant provisions and regulations, especially
since the audit has revealed for us a difference in how we treat
“match” and how the auditors view it as income.

It has been our experience that the emphasis for grantees has been
on securing match as a condition for the grant, and as a result, it
has been our practice to have field offices (internally) and
AmeriCorps placement sites (externally) share the responsibility
for the “match”, not in the context of fee for service, or program
income, but as a means to meet the conditions of the grant and to
insure that programmatic and operational costs related to
sponsoring the program are covered. Collecting these payments
has not been used as a means to generate revenue for LISC to use
for other purposes.

LISC does not disagree with the part of the recommendation to
report the income on the SF 269. However, LISC does request
guidance from the Corporation on how it wishes for this to be
implemented since the SF 269 (FSR long form) referred to in the
draft report is not available in E-grants ( which is the Corporation’s
required reporting vehicle).
FSR List                                                                                                 Page 1 of 1




    4/2/2008,10:14 AM, EST                                                      home       my account            help




    FSRS FOR EXISTING GRANTS

    Grant #00ADNNY019 - AmeriCorps*National @
    Grant #03NDHNY001 - AmeriCorps*National

    Reporting Date                        Due Date             Extension Date   status

    10/01/2006 - 05/31/2007               01/31/2008                            Review Financial Status Report

                                                                                Review Financial Status Report

                                                                                Review Financial Status Report

                                                                                Review Financial Status Report

                                                                                Review Financiai Status Report

                                                                                Review Financial Status Report

    10/01/2003    - 03/31/2004            04/30/2004                            Review Financial Status Report

    Grant #06NDHNY002          - AmeriCorps*National
   508 Approved   I Contact Help Desk I disable the pictures
FSR List                                                                                                      Page 1 of 1




    4/3/2008,4:30 PM, EST                                                         home          mv account              heb




    FSRS FOR EXISTING GRANTS

    Grant #00ADNNY019          - AmeriCorps*National @
    Grant #03NDHNY001- AmeriCorps*National                     @

    Grant #06NDHNY002          - AmeriCorps*National           Ef)

    Reporting Date                       Due Date              Extension Date   Status

    04/01/2008    - 09/30/2008           10/31/2008                             Financial Status Report Initial Entry

                                                                                Financial Status Report Initial Entry

                                                                                Review Financial Status Report

    09/01/2006    - 03/31/2007           04/30/2007                             Review Financial Status Report

   508 Approved   I Contact Help Desk I disable the pictures
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report




                                21
